Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 INSTITUTIONAL CONFLICTS OF
  INTEREST AT NIH GRANTEES




                    Daniel R. Levinson
                     Inspector General

                      January 2011
                     OEI-03-09-00480
I N T O R          D U C T      I O N
    E X E C U T I V E                          S U M M A R Y


                      OBJECTIVES
                          1. To determine whether National Institutes of Health (NIH)
                             grantee institutions have written policies and procedures to
                             address institutional financial interests and conflicts of interest.

                          2. To determine whether grantee institutions had financial
                             interests and financial conflicts of interest related to NIH
                             research grants in fiscal year (FY) 2008.


                      BACKGROUND
                      Grantee institutions consist of universities, medical schools, and other
                      research institutions (e.g., private or nonprofit research organizations)
                      receiving research grants from NIH. An institutional conflict may arise
                      when an institution’s own financial interests (e.g., royalties, equity,
                      stockholdings, and gifts) or those of its senior officials pose a risk of
                      undue influence on decisions involving the institution’s research.

                      Pursuant to Federal regulations, each grantee institution receiving NIH
                      funds must have a written policy for identifying researchers’ financial
                      conflicts of interest (hereinafter referred to as conflicts) and ensuring
                      that conflicts are managed, reduced, or eliminated. These regulations
                      do not apply to institutions’ conflicts. The Public Health Service (PHS)
                      Act directed the establishment of regulations that would protect PHS-
                      funded research (i.e., NIH grant research) from bias resulting from
                      conflicts of both researchers and entities (i.e., grantee institutions).
                      However, there are currently no Federal requirements to define,
                      identify, report, and manage actual or potential institutional conflicts.
                      Therefore, NIH lacks information on the number of institutional
                      conflicts at its grantee institutions and the impact these conflicts may
                      have on NIH-sponsored research.

                      We surveyed 250 grantee institutions to determine whether they have
                      any policies and procedures regarding institutional financial interests
                      and conflicts. We requested information on any institutional financial
                      interests related to NIH grants awarded in FY 2008. A total of 156
                      grantee institutions responded, for a response rate of 62 percent.




 OEI-03-09-00480      INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES              i
E X E C U T I V E               S U     M M A R Y




                   FINDINGS
                   Although not required for institutional financial interests, 70 of
                   156 responding NIH grantee institutions have written policies and
                   procedures addressing institutional interests. Fifty-nine of the
                   seventy institutions use a variety of definitions for what constitutes an
                   institutional financial interest. Policies and procedures for some
                   institutions relate only to financial interests held by the institutions
                   themselves, others consider the interests of both the institutions and
                   their employees/officials, and still others relate only to the interests of
                   institutional employees/officials.
                   The number of definitions used by institutions for institutional financial
                   interests ranged from one to eight. The average number of definitions
                   was five. The three most common definitions are (1) an institutional
                   official’s individual financial interests, (2) equity held by the institution
                   in publicly held entities, and (3) equity held by the institution in
                   nonpublicly held entities.
                   Although not required for institutional conflicts, 69 of
                   156 responding NIH grantee institutions have written policies and
                   procedures addressing institutional conflicts. Fifty-nine of these
                   institutions have defined, in writing, what constitutes an institutional
                   conflict. These institutions typically defined institutional conflicts as
                   financial interests that could affect the research, decisionmaking,
                   loyalty, or objectivity of either the institution or individuals.

                   Fifty-three of the sixty-nine institutions have implemented a process to
                   determine whether an institutional financial interest creates an
                   institutional conflict. Their processes generally involve notifying an
                   institutional official and/or committee regarding the financial interests.
                   The official and/or committee then determines whether the financial
                   interest is an institutional conflict.
                   Eighteen NIH grantee institutions identified 38 institutional conflicts.
                   Twenty-one of one-hundred fifty-six institutions identified institutional
                   financial interests. Of those, almost all identified the financial interests
                   as institutional conflicts. Eighteen of the twenty-one institutions
                   identified at least 38 institutional conflicts related to NIH research
                   grants in FY 2008. Institutions that have written policies and
                   procedures were more likely to identify conflicts (15 of 69 institutions)
                   compared to those that do not (3 of 87 institutions). The most common
                   type of institutional conflict was institutions’ holding equity in

 OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES               i
E X E C U T I V E               S U     M M A R Y


                   nonpublicly held companies. For institutions that identified
                   institutional conflicts, the strategy most often used to address them was
                   disclosure.


                   RECOMMENDATION
                   NIH is the primary Federal agency responsible for conducting and
                   supporting medical research. It is vital to public health and safety that
                   this research be free from bias. Federal regulations establish standards
                   to ensure that the design, conduct, and reporting of federally funded
                   research will not be biased by any conflicting financial interest of a
                   researcher. Currently, no Federal regulations require grantee
                   institutions to identify and report institutional conflicts to NIH.
                   Therefore, NIH lacks information on the number of institutional
                   conflicts that exist among its grantee institutions and the impact these
                   conflicts may have on NIH-sponsored research.

                   We continue to recommend that NIH require grantee institutions to
                   identify, report, and address institutional conflicts in a consistent and
                   uniform manner to NIH. It is important that NIH know of the existence
                   of institutional conflicts so it can ensure that the related research is free
                   from any intended or unintended bias.

                   Therefore, we recommend that NIH:
                   Promulgate regulations that address institutional financial conflicts
                   of interest. Until regulations are promulgated, NIH should encourage
                   grantee institutions to develop policies and procedures regarding
                   institutional financial interests and conflicts.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   NIH stated that it is reviewing public comments to finalize regulations
                   regarding financial conflicts of interest and, therefore, it neither concurs
                   nor nonconcurs with our recommendation. Instead, NIH stated it will
                   take the Office of Inspector General’s (OIG) recommendation into
                   consideration as it considers future actions on extramural financial
                   conflicts of interest.

                   OIG understands that NIH is engaged in the rulemaking process
                   regarding financial conflicts of interest. However, in the
                   May 21, 2010, Notice of Proposed Rulemaking regarding financial
                   conflicts of interest, NIH proposed regulatory changes that focus only on

 OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES              ii
                  researchers’ conflicts. The proposed regulations do not address
                  institutional conflicts. Therefore, OIG continues to recommend that
                  NIH include institutional conflicts in regulations addressing financial
                  conflicts of interest.




OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES          iii
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 9
                   Although not required for institutional financial interests,
                   70 of 156 responding NIH grantee institutions have written
                   policies and procedures addressing institutional interests . . . . . . . 9

                   Although not required for institutional conflicts, 69 of
                   156 responding NIH grantee institutions have written policies
                   and procedures addressing institutional conflicts . . . . . . . . . . . . . 11

                   Eighteen NIH grantee institutions identified 38 institutional
                   conflicts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                   Agency Comments and Office of Inspector General Response . . . 18



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                   A: Results by Stratum for Grantee Institutions With Written
                   Policies and Procedures Regarding Institutional Financial
                   Interests and Institutional Conflicts . . . . . . . . . . . . . . . . . . . . . . . 20

                   B: Number of Grantee Institutions That Reported Incorporating
                   Recommended Actions From Departmental Guidance in Written
                   Policies and Procedures Regarding Institutional Financial
                   Interests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                   C: Methods Employed by Grantee Institutions To Manage,
                   Reduce, or Eliminate Institutional Conflicts . . . . . . . . . . . . . . . . . 22

                   D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
   I N T R O D U C T I O N


                  OBJECTIVES
                      1. To determine whether National Institutes of Health (NIH)
                         grantee institutions have written policies and procedures to
                         address institutional financial interests and conflicts of interest.

                      2. To determine whether grantee institutions had financial
                         interests and financial conflicts of interest related to NIH
                         research grants in fiscal year (FY) 2008.


                  BACKGROUND
                  Grantee institutions consist of universities, medical schools, and other
                  research institutions (e.g., private or nonprofit research organizations)
                  receiving research grants from NIH. Pursuant to Federal regulations,
                  each institution receiving NIH funds must have a written policy for
                  (1) identifying investigators’ (hereinafter referred to as researchers)
                  financial conflicts of interest (hereinafter referred to as conflicts) and
                  (2) ensuring that conflicts are managed, reduced, or eliminated. 1, 2 The
                  purpose of these regulations is to promote objectivity in research by
                  establishing standards to ensure that there is no reasonable expectation
                  that the design, conduct, or reporting of research funded under NIH
                  grants will be biased by any conflicting financial interest of a
                  researcher.

                  Conflicts can also exist for the institutions themselves. An institution’s
                  financial interests (e.g., royalties, equity, stockholdings, and gifts) or
                  those of its senior officials can become institutional conflicts when the
                  financial interests pose a risk of undue influence on decisions involving
                  the institution’s research. 3 There are no Federal regulations for
                  defining, identifying, reporting, and managing institutional conflicts.
                  Prior research has shown that not all medical schools have policies
                  regarding institutional financial interests and conflicts. 4



                    1 42 CFR pt. 50, subpart F. This regulation covers Public Health Service (PHS) grants
                  and NIH is the largest agency within PHS.
                    2 The term “researcher” includes the principal researcher or any other person who is
                  responsible for the design, conduct, or reporting of research funded by NIH.
                    3 Institute of Medicine of the National Academies, Conflict of Interest in Medical
                  Research, Education, and Practice, ch. 8, April 21, 2009.
                    4 Ehringhaus, S., et al., “Responses of Medical Schools to Institutional Conflicts of
                  Interest,” Journal of the American Medical Association, February 13, 2008.



OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                               1
I N T R O D        U C T      I O N


                    NIH Grants
                    NIH is the primary Federal agency responsible for conducting and
                    supporting medical research. Organized into 27 Institutes and Centers,
                    NIH receives billions of dollars annually to support its mission. In
                    FY 2010, NIH’s budget totaled over $31.2 billion. More than 80 percent
                    of this amount was distributed through almost 50,000 competitive
                    grants to more than 325,000 researchers at over 3,000 institutions
                    across the country and around the world. 5
                    Impact of the Bayh-Dole Act
                    In 1980, the Patent and Trademark Act Amendments (P.L. 96-517),
                    commonly known as the Bayh-Dole Act, was enacted to facilitate the
                    transfer of technology from grantee institutions to private industry.
                    The Bayh-Dole Act has encouraged the commercialization of federally
                    funded inventions but has also increased financial ties between grantee
                    institutions and private industry.

                    The Bayh-Dole Act allows grantee institutions to retain title to
                    inventions developed through federally funded research. If institutions
                    elect to retain title to inventions, they can license them to private
                    businesses or companies. Companies can then develop these inventions
                    into commercial products that benefit the public. These inventions have
                    provided institutions with millions of dollars in royalties and equity. 6
                    Commercial products developed as a result of NIH-funded research
                    include prescription drugs and other health care products.
                    Requirements for Grantee Institutions Regarding Researcher Conflicts
                    Federal regulation establishes standards to ensure that the design,
                    conduct, or reporting of research funded under NIH grants will not be
                    biased by researchers’ conflicts. 7 Each institution receiving NIH funds
                    must have a written policy for identifying researchers’ conflicts and
                    ensuring that conflicts are identified, managed, reduced, or eliminated. 8
                    Each grantee institution must collect from each researcher a listing of
                    his/her known significant financial interests that would reasonably


                      5 NIH budget information. Accessed at http://www.nih.gov/about/budget.htm on
                    April 15, 2010.
                      6 NIH Response to the Conference Report Request for a Plan to Ensure Taxpayers'
                    Interests Are Protected, July 2001. Accessed at http://www.nih.gov/news/070101wyden.htm
                    on April 15, 2010.
                      7 42 CFR pt. 50, subpart F.
                      8 42 CFR § 50.604.




 OEI-03-09-00480    INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                           2
I N T R O D        U C T      I O N


                    appear to be affected by the research. Federal regulation
                    (42 CFR § 50.605(a)) provides that a conflict exists when a designated
                    official at the institution reasonably determines that a researcher’s
                    significant financial interest could directly and significantly affect the
                    design, conduct, or reporting of NIH-funded research. If a researcher
                    conflict exists, it must be reported to NIH. The institution must also
                    manage, reduce, or eliminate the researcher conflict.
                    Lack of Requirements for Grantee Institutions Regarding Institutional
                    Conflicts
                    For institutional financial interests, there are no Federal regulations for
                    defining, identifying, reporting, or managing conflicts. Grantee
                    institutions are not required to have policies that address either
                    institutional financial interests or conflicts. However, section 493A of
                    the PHS Act directed the Secretary of Health & Human Services (HHS)
                    to establish regulations that would protect PHS-funded research (i.e.,
                    NIH grant research) from bias resulting from conflicts of both
                    researchers and entities (i.e., grantee institutions). 9 In the
                    July 1995 final rule that promulgated Federal regulations for
                    researchers’ conflicts (42 CFR pt. 50, subpart F), NIH stated that the
                    issue of institutional conflicts would be considered separately from
                    researchers’ conflicts. Currently, no Federal regulation addresses
                    institutional conflicts.

                    On May 8, 2009, NIH issued an Advance Notice of Proposed
                    Rulemaking (ANPRM) to gain public input on whether modifications
                    are needed to 42 CFR pt. 50, subpart F. NIH invited public comments
                    on all aspects of potential regulation in this area, including broadening
                    the regulations to address institutional conflicts. 10 Taking public
                    comments regarding the ANPRM into consideration, on May 21, 2010,
                    NIH issued a Notice of Proposed Rulemaking (NPRM). In the NPRM,
                    NIH proposed new requirements to strengthen the reporting and
                    management of researcher conflicts. However, the regulations were not
                    broadened to include institutional conflicts. NIH believed that further
                    consideration was necessary before regulations could be formulated that
                    would address institutional conflicts in the same comprehensive manner
                    as the proposed regulations regarding researcher conflicts. 11


                      9 The Secretary of HHS delegated authority to NIH to promulgate Federal regulations.
                      10 74 Fed. Reg. 21610, 21612 (May 8, 2009).
                      11 75 Fed. Reg. 28688, 28700 (May 21, 2010).




 OEI-03-09-00480    INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                              3
I N T R O D        U C T      I O N


                    Recommendations From HHS Regarding Financial Interests Related to
                    Human Subjects Research
                    In a guidance document finalized in May 5, 2004, HHS’ Office for
                    Human Research Protections recommended 12 actions for grantee
                    institutions to consider when handling financial interests in research
                    involving human subjects. 12 Two of the recommended actions included
                    (1) “establishing the independence of institutional responsibility for
                    research activities from the management of the institution’s financial
                    interests” and (2) “establishing policies regarding the types of financial
                    relationships that may be held by parties involved in the research and
                    circumstances under which those financial relationships and interests
                    may or may not be held.”
                    Recommendations From the Institute of Medicine Regarding Institutional
                    Conflicts
                    Institutional conflicts have prompted discussion and recommendations
                    from industry and the research community. In an April 2009 report by
                    the Institute of Medicine (IOM), the Committee on Conflict of Interest
                    in Medical Research, Education, and Practice (Committee) presented
                    challenges with managing institutional conflicts and provided
                    recommendations to handle such challenges. 13
                    According to the Committee, institutional conflicts arise when an
                    institution’s own financial interests pose risks of undue influence on
                    decisions involving the institution’s primary interests. For example,
                    conflicts may arise when an institution receives gifts or grants from
                    companies to develop clinical practice guidelines related to the
                    companies’ products. 14 In addition, research conducted at the
                    institution could affect the value of the institution’s patents or its equity
                    positions or options in biotechnology, pharmaceutical, or medical device
                    companies. 15
                    In addition, the IOM report highlighted that in an American Association
                    of Medical Colleges’ survey of its members conducted in 2006, only
                    38 percent of the respondents reported having a policy that applied to

                      12 HHS, Office for Human Research Protections, Financial Relationships and Interests in
                    Research Involving Human Subjects: Guidance for Human Subject Protection. Accessed at
                    http://www.hhs.gov/ohrp/humansubjects/finreltn/fguid.pdf on April 15, 2010.
                      13 Institute of Medicine of the National Academies, loc. cit.
                      14 A clinical practice guideline is a document that provides criteria regarding diagnosis,
                    management, and treatment in specific areas of health care.
                      15 Institute of Medicine of the National Academies, loc. cit.




 OEI-03-09-00480    INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                                    4
I N T R O D        U C T      I O N


                    their institutions’ financial interests, although another 37 percent
                    reported that they were developing such a policy.

                    The Committee directed recommendations to NIH and grantee
                    institutions. The Committee recommended that NIH extend Federal
                    regulations to cover institutional conflicts as well as researchers’
                    conflicts by developing rules governing institutional conflicts for grantee
                    institutions. The Committee suggested that these rules require
                    institutions to report identified institutional conflicts and the steps that
                    have been taken to eliminate or manage such conflicts to NIH.

                    The Committee recommended to institutions that the assessment of
                    institutional conflicts fall to their governing boards (e.g., board of
                    trustees). Specifically, the governing boards should establish standing
                    committees on institutional conflicts that are composed of members
                    without conflicts relevant to the activities of the institution and at least
                    one member who is not a board member, an employee, or an officer of
                    the institution. Such standing committees would be at a greater
                    distance from the daily pressures of decisionmaking that senior officials
                    face. They would also have access to comprehensive information about
                    the finances of the institutions to better resolve disputes regarding
                    conflicts.
                    Related Studies by the Office of Inspector General
                    In a January 2008 report, the Office of Inspector General (OIG) found
                    that NIH relies on grantee institutions to ensure compliance with
                    Federal financial conflict-of-interest regulations rather than directly
                    overseeing or reviewing their management of researchers’ conflicts. 16
                    In a November 2009 report, OIG reviewed 184 financial
                    conflict-of-interest reports for researchers that were received by NIH
                    from grantee institutions during FY 2006. 17 OIG found vulnerabilities
                    in institutions’ identification, management, and oversight of conflicts.
                    OIG also found vulnerabilities related to institutional financial
                    interests. The potential for financial gain can pose an institutional
                    conflict when an institution licenses technology/intellectual property for
                    the purposes of commercialization. Therefore, one of our



                      16 HHS, OIG, National Institutes of Health: Conflicts of Interest in Extramural
                    Research, OEI-03-06-00460, January 2008.
                      17 HHS, OIG, How Grantees Manage Financial Conflicts of Interest in Research Funded
                    by the National Institutes of Health, OEI-03-07-00700, November 2009.



 OEI-03-09-00480    INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                             5
I N T R O D        U C T        I O N


                    recommendations called for NIH to develop regulations that address
                    institutional conflicts.


                    METHODOLOGY
                    Sample Design
                    We determined from a data file found on NIH’s Web site that
                    2,648 grantee institutions received grant money in FY 2008. 18 We
                    excluded any institutions located outside the United States (we included
                    all 50 States and the District of Columbia). We also excluded
                    institutions that received only training grants. 19 Finally, we excluded
                    any institutions for which NIH’s data listed grant award amounts of $1
                    or less. 20 After the exclusions, we determined that 2,321 grantee
                    institutions received research grants in FY 2008.

                    We requested from NIH a list of financial conflict-of-interest reports for
                    researchers submitted by grantee institutions during FY 2008. We
                    asked for this information to ensure that we were including in our
                    sample a representative number of those institutions that submitted
                    reports for researchers to NIH. Based on the information provided by
                    NIH, we determined that 64 institutions reported at least 1 researcher
                    conflict to NIH in FY 2008 and 2,257 institutions did not report any
                    conflicts.

                    We selected a stratified random sample of 250 institutions to survey as
                    shown in Table 1. Stratum 1 contains all of the institutions that
                    reported at least one researcher conflict in FY 2008. Stratum 2 contains
                    all of the institutions that did not report any researcher conflicts.




                      18 NIH,   Aggregate Data 2008. Accessed at
                    http://report.nih.gov/award/trends/AggregateData.cfm?Year=2008 on August 5, 2009.
                      19 Training grants are designed to support the research training of scientists for careers
                    in the biomedical and behavioral sciences, as well as to help professional schools establish,
                    expand, or improve programs of continuing professional education.
                       20 After the initial exclusions, five institutions were listed in NIH’s file as having
                    received $1 in grant awards.



 OEI-03-09-00480    INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                                     6
I N T R O D           U C T         I O N


       Table 1: Sample of Grantee Institutions

                                                                                                  Number of
                                                      Number of              Number of
                                                                                                      Grantee
                                                         Grantee                Grantee
        Stratum        Description of Stratum                                               Institutions That   Response Rate
                                                   Institutions in        Institutions in
                                                                                              Responded to
                                                      Population                 Sample
                                                                                                       Survey
                         Grantee institutions
                             that submitted a
                         researcher financial
          1                                                    64                    64                   52            81%
                           conflict-of-interest
                              report to NIH in
                                     FY 2008
                         Grantee institutions
                        that did not submit a
                         researcher financial
          2                                                 2,257                   186                 104             56%
                           conflict-of-interest
                              report to NIH in
                                     FY 2008
              Total                                         2,321                   250                 156             62%
        Source: OIG analysis of NIH data and OIG sample response rate, March 2010.


                        We made at least three attempts by email to request responses from
                        nonresponding grantee institutions. A total of 156 institutions
                        responded, for an overall response rate of 62 percent. However, based
                        on the overall response rate and the difference in response rates for
                        Stratum 1 (81 percent) and Stratum 2 (56 percent), we did not project
                        our findings to the population of 2,321 NIH grantee institutions.
                        Instead, we have provided simple unweighted frequencies for our
                        findings. Appendix A provides both overall totals and totals by stratum
                        for the main findings in this report.
                        Data Collection
                        We collected our data between November 2009 and January 2010. We
                        surveyed the sampled institutions to determine whether they have
                        developed any policies and procedures regarding institutionally held
                        financial interests and conflicts. We asked whether grantee institutions
                        included in their policies and procedures any of the recommendations
                        from HHS’ Office for Human Research Protections or IOM regarding
                        institutionally held financial interests or conflicts.

                        We asked the institutions whether they had institutional financial
                        interests related to any NIH grants awarded in FY 2008. We requested
                        information about whether the institutional financial interests were
                        determined to be conflicts by institutions. We also asked for
                        information on how these conflicts were addressed.


 OEI-03-09-00480        INSTITUTIONAL CONFLICTS    OF   INTEREST   AT   NIH GRANTEES                                       7
I N T R O D        U C T      I O N


                    Data Analysis
                    From the survey data, we determined the frequency of responses to
                    closed-ended survey questions. We also reviewed and categorized
                    responses to open-ended survey questions that were related to
                    institutions’ definitions, policies, and procedures regarding
                    institutionally held financial interests and institutional conflicts. For
                    these analyses we have provided, when applicable, both the overall
                    totals and totals for each stratum.
                    Limitations
                    Because of the overall 62-percent response rate and the large difference
                    in response rates between the two strata, the data in our findings
                    represent only the information for responding grantee institutions. It is
                    possible that the data would have changed if the response rate had been
                    higher, especially for Stratum 2 (grantee institutions that did not
                    submit a researcher financial conflict-of-interest report to NIH in
                    FY 2008).

                    All of the information in the findings section of this report was
                    self-reported by grantee institutions. We did not collect supporting
                    documentation from them.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-09-00480    INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES             8
   F   I N D I N G              S
          F I N D I N G S

  Although not required for institutional financial                  Grantee institutions can acquire
      interests, 70 of 156 responding NIH grantee                    financial interests related to
institutions have written policies and procedures                    NIH-funded research at their
                                                                     institutions. These financial
                 addressing institutional interests
                                                                     interests can include royalties,
                               equity, stockholdings, and corporate gifts. Currently, no Federal
                               regulations require grantee institutions to have policies and procedures
                               that address institutional financial interests.
                               Seventy of the one hundred fifty-six grantee institutions that responded
                               to our survey have written policies and procedures regarding
                               institutional financial interests. Institutions that reported a researcher
                               conflict to NIH in FY 2008 (Stratum 1) were more likely to have written
                               policies and procedures. Table 2 shows the number of institutions with
                               such written policies and procedures.
                 Table 2: Number of Grantee Institutions That Have Written Policies and
                 Procedures Regarding Institutional Financial Interests

                                                                                                         Percentage of Respondents in
                                                                                    Number of Grantee
                  Stratum                 Description of Stratum                                          Stratum With Written Policies
                                                                                          Institutions
                                                                                                                       and Procedures
                                       Grantee institutions that
                   1                    submitted a researcher
                                                                                                   37                             71%
                   (n=52)           financial conflict-of-interest
                                       report to NIH in FY 2008
                                    Grantee institutions that did
                   2                   not submit a researcher
                                                                                                   33                             32%
                   (n=104)          financial conflict-of-interest
                                       report to NIH in FY 2008
                       Total                                                                       70                             45%
                 Source: OIG analysis of grantee institution survey responses, March 2010.

                               Fifty-nine of the seventy grantee institutions with written policies and
                               procedures regarding institutional financial interests have defined, in
                               writing, what constitutes an institutional financial interest
                               The 59 institutions use a variety of specific definitions for what
                               constitutes an institutional financial interest. Policies and procedures
                               for some institutions relate only to financial interests held by the
                               institutions themselves, others consider the interests of both the
                               institutions and their employees/officials, and still others relate only to
                               the interests of institutional employees/officials.

                               The number of definitions used by institutions for institutional financial
                               interests ranged from one to eight. The average number of definitions
                               used by grantee institutions was five. The three most common

       OEI-03-09-00480         INSTITUTIONAL CONFLICTS    OF   INTEREST   AT   NIH GRANTEES                                           9
F   I N D I N G                S


                              definitions were (1) an institutional official’s individual financial
                              interests, (2) equity held by the institution in publicly held entities, and
                              (3) equity held by the institution in nonpublicly held entities. Table 3
                              shows the number of grantee institutions with written policies and
                              procedures that use the different definitions of financial interests.
              Table 3: Number of Grantee Institutions With Written Policies and
              Procedures Using Various Definitions of Institutional Financial Interests
                                                            Number of Grantee           Number of Grantee
                Institution Defined Financial                                                                          Total Number of Grantee
                                                                Institutions in             Institutions in                                   1
                Interest As:                                                                                                      Institutions
                                                                    Stratum 1                   Stratum 2
               Institutional officials’ individual
                                                                                 30                        20                                   50
               financial interests
               Equity in publicly held
                                                                                 29                        19                                   48
               companies
               Equity in nonpublicly held
                                                                                 28                        19                                   47
               companies
               Royalties resulting from
                                                                                 19                        18                                   37
               federally funded research
               Royalties resulting from
                                                                                 20                        16                                   36
               nonfederally funded research
               Gifts from research sponsors                                      17                        19                                   36
               Payments from research
               sponsors for reaching
                                                                                 12                        18                                   30
               designated milestones in a
               course of a study
               Other (e.g., intellectual
                                                                                  5                         7                                   12
               property)
              Source: OIG analysis of grantee institution survey responses, March 2010.
              1
                The total number of institutions with a written definition of an institutional financial interest equals 59. The number of institutions
              in this column does not equal 59 because some institutions established more than 1 definition.

                              Most of the 70 grantee institutions with written policies and procedures
                              reported that they had incorporated recommendations from the HHS
                              Guidance Document
                              Sixty-two of the seventy institutions stated that they have incorporated
                              recommendations from the HHS Guidance Document into their policies
                              and procedures. The Guidance Document, issued by HHS’s Office of
                              Human Research Protections, outlines 12 recommended actions that
                              grantee institutions engaged in human subject research should consider
                              to help ensure that financial interests do not compromise the rights and
                              welfare of human research subjects.

                              The most common recommendation that institutions reported including
                              was establishing conflict-of-interest committees or identifying other
                              bodies or persons and procedures to deal with individuals’ or
                              institutional financial interests in research. The recommendation
                              incorporated least often was to allow independent organizations to hold

    OEI-03-09-00480           INSTITUTIONAL CONFLICTS       OF   INTEREST   AT   NIH GRANTEES                                                   10
 F   I N D I N G        S


                       or administer the institution’s financial interest. Appendix B contains
                       the number of institutions that incorporated each recommendation.

                                                               Institutional conflicts arise when
Although not required for institutional conflicts,
                                                               a grantee institution’s own
   69 of 156 responding NIH grantee institutions               financial interests or those of its
           have written policies and procedures                senior officials pose risks of undue
                addressing institutional conflicts             influence on decisions involving
                                                               the institution’s research. 21 For
                       example, an institutional conflict exists if the outcome of research
                       conducted at a grantee institution could affect the value of the
                       institution’s equity in a particular company. Currently, there are no
                       Federal requirements that grantee institutions have policies and
                       procedures to address institutional conflicts.
                       Beyond policies and procedures to address institutional financial
                       interests, grantee institutions also have policies and procedures
                       specifying how to handle instances in which those interests pose an
                       actual conflict with research activities. Sixty-nine institutions have
                       written policies and procedures regarding institutional financial
                       conflicts. A total of 78 institutions have not developed written policies
                       and procedures for either institutional financial interests or conflicts. 22
                       Again, institutions that reported a researcher conflict to NIH in FY
                       2008 (Stratum 1) were more likely to have written policies and
                       procedures regarding institutional conflicts. Table 4 shows the number
                       of institutions with written policies and procedures for institutional
                       conflicts.




                         21 Institute of Medicine of the National Academies, loc. cit.
                         22 Sixty-one grantee institutions have written policies and procedures for both
                       institutional financial interests and conflicts, nine institutions have policies and procedures
                       for only institutional financial interests, and eight institutions have policies and procedures
                       for only institutional conflicts.



     OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                                  11
F   I N D I N G              S


              Table 4: Number of Grantee Institutions That Have Written Policies and
              Procedures Regarding Institutional Conflicts

                                                                                 Number of Grantee
               Stratum                 Description of Stratum                                         Percentage of Respondents
                                                                                       Institutions
                                    Grantee institutions that
                1                    submitted a researcher
                                                                                                37                        71%
                (n=52)           financial conflict-of-interest
                                    report to NIH in FY 2008
                                 Grantee institutions that did
                2                   not submit a researcher
                                                                                                32                        31%
                (n=104)          financial conflict-of-interest
                                    report to NIH in FY 2008
                    Total                                                                       69                        44%
              Source: OIG analysis of grantee institution survey responses, March 2010.


                            Fifty-nine of the sixty-nine grantee institutions with written policies and
                            procedures regarding institutional conflicts have defined, in writing, what
                            constitutes an institutional conflict
                            The 59 institutions typically defined institutional conflicts as financial
                            interests that could affect the research, decisionmaking, loyalty, or
                            objectivity of either the institution or individuals. Some institutions
                            determined that institutional conflicts exist when financial interests are
                            of a certain type or reach a certain threshold amount (e.g., $100,000 or
                            5-percent equity holding).
                            Fifty-three of the sixty-nine grantee institutions with written policies and
                            procedures have implemented a process to determine whether an
                            institutional financial interest creates an institutional conflict
                            These 53 institutions’ processes generally involved notifying an
                            institutional official and/or committee regarding the financial interests.
                            The official and/or committee then determines whether the financial
                            interest is an institutional conflict. Some of these officials/committees
                            also review institutional equity holdings and/or license/royalty
                            agreements to determine whether they are institutional conflicts.
                            Forty of the sixty-nine grantee institutions with written policies and
                            procedures regarding institutional conflicts have a committee that reviews
                            institutional conflicts
                            All of the committees among these 40 grantee institutions have the
                            authority to determine whether institutional financial interests are
                            institutional conflicts. All but two of the committees have the additional
                            authority to determine how the conflicts will be addressed. Nineteen of



    OEI-03-09-00480         INSTITUTIONAL CONFLICTS    OF   INTEREST   AT   NIH GRANTEES                                     12
F   I N D I N G        S


                      these committees are separate entities from the committees responsible
                      for reviewing researchers’ conflicts at the institutions.

                      In its April 2009 report, IOM recommended that grantee institutions
                      handle challenges in managing institutional conflicts by implementing
                      standing committees to assess the conflicts. As recommended by IOM,
                      15 of the 69 institutions have boards of trustees (or an equivalent
                      governing body) that have established their own standing committees
                      on institutional conflicts. Seven institutions also have at least one
                      outside member of their committees who is not a board member, an
                      employee, or an officer of the institutions. Five of these committees
                      submit annual reports to the boards of trustees regarding institutional
                      conflicts, which are made public.

                                                                 Twenty-one of one hundred
          Eighteen NIH grantee institutions identified
                                                                 fifty-six grantee institutions
                            38 institutional conflicts           identified institutional
                      financial interests. Almost all of those 21 identified the financial
                      interests as institutional conflicts.
                      Eighteen of the twenty-one institutions identified at least
                      38 institutional conflicts related to NIH research grants in FY 2008. 23
                      The remaining three institutions that identified financial interests did
                      not determine them to be conflicts. Of the 18 grantee institutions that
                      identified institutional conflicts, 15 had written policies and procedures
                      regarding institutional conflicts. The remaining three institutions did
                      not have written policies and procedures. Therefore, our findings show
                      that institutions with written policies and procedures were more likely
                      to identify conflicts (15 of 69 institutions) than those without written
                      policies and procedures (3 of 87 institutions). Table 5 shows the number
                      of institutions per stratum that identified conflicts.




                         23 Three of the eighteen grantee institutions reported that they had at least one
                      institutional conflict, but could not provide a specific number.



    OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                            13
F   I N D I N G              S


              Table 5: Number of Grantee Institutions That Reported Identifying
              Institutional Conflicts

                                                                              Number of Grantee       Number of These Grantee
               Stratum                  Description of Stratum                    Institutions With    Institutions With Written
                                                                            Institutional Conflicts    Policies and Procedures
                                     Grantee institutions that
                1                    submitted a researcher
                                                                                               14                            13
                                 financial conflict-of-interest
                                    report to NIH in FY 2008
                                 Grantee institutions that did
                2                    not submit a researcher
                                                                                                 4                            2
                                 financial conflict-of-interest
                                    report to NIH in FY 2008
                    Total                                                                      18                            15

              Source: OIG analysis of grantee institution survey responses, March 2010.


                            Grantee institutions tended to have the same conflicts as their
                            researchers. This is important because, in essence, institutions are
                            overseeing researchers’ conflicts when they themselves have the same
                            potential conflict. At 17 of the 18 institutions, researchers who worked
                            on the grant(s) had the same types of conflict(s) as the institutions. For
                            example, at one institution, both the institution and the researcher held
                            equity in the same nonpublicly held company.
                            The most common type of institutional conflict was grantee institutions’
                            holding equity in nonpublicly held companies
                            The 18 institutions that had institutional conflicts identified different
                            types of conflicts. The two most common types were holding equity in
                            nonpublicly held companies and receiving royalties resulting from
                            federally funded research. Table 6 shows the types of institutional
                            conflicts per stratum that were reported by institutions in FY 2008 and
                            the number of institutions reporting each type.




    OEI-03-09-00480         INSTITUTIONAL CONFLICTS    OF   INTEREST   AT   NIH GRANTEES                                           14
F   I N D I N G                S


              Table 6: Number of Grantee Institutions With Different Types of
              Institutional Conflicts Reported Between October 1, 2007, and
              September 30, 2008
                                                                 Number of Grantee                Number of Grantee             Total Number of
                                                           Institutions in Stratum 1        Institutions in Stratum 2        Grantee Institutions
                Type of Institutional Conflicts
                                                                  Reporting Type of                Reporting Type of          Reporting Type of
                                                                                                                                                1
                                                                             Conflict                         Conflict                  Conflict
               Equity in nonpublicly held
                                                                                     9                                2                           11
               companies
               Royalties resulting from
                                                                                     8                                2                           10
               federally funded research
               Institutional officials’ individual
                                                                                     4                                1                            5
               financial interests
               Royalties resulting from
                                                                                     3                                0                            3
               nonfederally funded research
               Equity in publicly held
                                                                                     2                                0                            2
               companies
               Unspecified royalties                                                 1                                0                            1

               Not specified/other                                                   1                                1                            2
              Source: OIG analysis of grantee institution survey responses, March 2010.
              1
                Eighteen institutions identified thirty-eight institutional conflicts. The number of institutions in this column does not equal
              18 because some institutions had more than 1 type of conflict. The number of conflicts in the column does not equal 38
              because, for example, some institutions reported that a conflict involved both equity and royalties.



                              Grantee institutions reported having various strategies available to address
                              their institutional conflicts
                              Pursuant to Federal regulation, grantee institutions must ensure that
                              researchers’ conflicts will be managed, reduced, or eliminated.
                              Although no such requirement exists for addressing institutional
                              conflicts, 98 of 156 institutions reported that they had strategies to
                              ensure that institutional conflicts do not bias research. The five most
                              commonly reported strategies were (1) ensuring an open exchange of
                              research results through publication and/or presentations, (2) disclosing
                              the institutional conflict during the informed consent process for human
                              subjects, (3) formally recusing the official who has a conflict from the
                              chain of authority over the project and communicating the recusal to the
                              official’s superior and colleagues, (4) notifying the Institutional Review
                              Board 24 regarding the institutional conflict, and (5) ensuring that
                              adequate peer review of research is performed by the institution.
                              Appendix C contains the number of institutions per stratum that use
                              these and other strategies.



                                 24 Institutional review boards ensure the rights and safety of people participating in
                              clinical trials.



    OEI-03-09-00480           INSTITUTIONAL CONFLICTS       OF   INTEREST   AT   NIH GRANTEES                                                     15
F   I N D I N G        S


                      Grantee institutions that identified institutional conflicts most often used
                      disclosure to address them
                      For the 18 institutions that identified institutional conflicts, the
                      2 methods most often used to address conflicts were (1) disclosing them
                      during the informed consent process for research involving human
                      subjects and (2) notifying the Institutional Review Board regarding the
                      conflicts. The next two strategies most commonly used were disclosing
                      the institutional conflicts in public presentations and publications and
                      ensuring that adequate peer review of research was performed by the
                      institution.




    OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES             16
I N T O R          D U C T      I O N
    R E C O M M E N D A T I O N




                      NIH is the primary Federal agency responsible for conducting and
                      supporting medical research. It is vital to public health and safety that
                      this research be free from bias. Federal regulations establish standards
                      to ensure that the design, conduct, and reporting of federally funded
                      research will not be biased by a researcher’s conflict. The PHS Act
                      directed the establishment of regulations that would protect
                      PHS-funded research (i.e., NIH grant research) from bias resulting from
                      conflicts of both researchers and entities (i.e., grantee institutions).
                      However, there are currently no Federal requirements to identify and
                      report institutional conflicts to NIH. Therefore, NIH lacks information
                      on the number of institutional conflicts that exist among its grantee
                      institutions and the impact these conflicts may have on NIH-sponsored
                      research.

                      Our review shows that institutional conflicts do exist at grantee
                      institutions. Eighteen of the one hundred fifty-six institutions that
                      responded to our survey identified institutional conflicts related to their
                      NIH grants in FY 2008. We found that the institutions with written
                      policies and procedures regarding institutional conflicts were more
                      likely to identify conflicts. However, because half of the responding
                      institutions have no written policies and procedures, it is impossible to
                      know how many additional institutions would have identified
                      institutional conflicts if they had policies and procedures.
                      Even institutions with polices and procedures differed in how they
                      defined and addressed institutional financial interests and conflicts
                      related to research. Therefore, we continue to recommend that NIH
                      require institutions to identify, report, and address institutional
                      conflicts in a consistent and uniform manner. It is important that NIH
                      know of the existence of institutional conflicts so it can ensure that
                      research is free from any intended or unintended bias.

                      Therefore, as in our previous report, we recommend that NIH:
                      Promulgate regulations that address institutional financial conflicts of
                      interest
                      We recommend that the regulations include the following:

                              the definition of an institutional financial conflict of interest;



 OEI-03-09-00480      INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES                   17
R   E C O        M M E N D A T            I O N


                              a requirement that grantee institutions have written policies
                               regarding the identification and oversight of institutional
                               financial conflicts of interest;

                              the elements required in an institution’s policy regarding
                               institutional financial conflicts of interest (such as the
                               identification and management of conflicts);

                              a requirement that institutions report institutional conflicts to
                               NIH, including reporting the details regarding the nature and
                               management of such conflicts; these details should include the
                               value of the financial interest, a description of how the financial
                               interest relates to the research, a description of how the
                               institutional conflict will be managed, and a description of how
                               the management of the institutional conflict will ensure
                               objectivity in the research; and

                              guidance on how institutional conflicts should be identified,
                               managed, reduced, or eliminated.

                      Until regulations are promulgated, NIH should encourage grantee
                      institutions to develop policies and procedures regarding institutional
                      financial interests and conflicts.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      NIH agreed that institutional conflict of interest is a significant and
                      timely topic worthy of serious consideration. NIH stated that it is
                      reviewing public comments to finalize regulations regarding financial
                      conflicts of interest and, therefore, it neither concurs nor nonconcurs
                      with our recommendation. Instead, NIH stated it will take OIG’s
                      recommendation into consideration as it considers future actions on
                      extramural financial conflicts of interest. NIH also made several
                      technical comments on the report, and OIG has made changes to the
                      report based on these comments where appropriate.

                      OIG understands that NIH is engaged in the rulemaking process
                      regarding financial conflicts of interest. However, in the
                      May 21, 2010, Notice of Proposed Rulemaking regarding financial
                      conflicts of interest, NIH proposed regulatory changes that focus only on
                      researchers’ conflicts. The proposed regulations do not address
                      institutional conflicts. Therefore, OIG continues to recommend that



    OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES              18
R   E C O        M M E N D A T            I O N


                      NIH include institutional conflicts in regulations addressing financial
                      conflicts of interest. The full text of NIH’s comments is provided in
                      Appendix D.




    OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES          19
                 A P P E N D I X ~ A

  Table A-1: Results by Stratum for Grantee Institutions With Written Policies and
  Procedures Regarding Institutional Financial Interests and Institutional Conflicts

                                                                                Number of Grantee             Number of Grantee     Total Number of Grantee
                                                                          Institutions in Stratum 1     Institutions in Stratum 2               Institutions
  Number of grantee institutions that have written policies
                                                                                                 37                           33                         70
  and procedures regarding institutional financial interests
        Number of institutions that have defined, in
        writing, what constitutes an institutional financial                                     32                           27                         59
        interest
  Number of grantee institutions that have written policies
                                                                                                 37                           32                         69
  and procedures regarding institutional conflicts
        Number of institutions that have defined, in
                                                                                                 35                           24                         59
        writing, what constitutes an institutional conflict
          Number of institutions that have implemented a
          process to determine whether an institutional                                          31                           22                         53
          financial interest creates an institutional conflict
          Number of institutions that have a committee that
                                                                                                 26                           14                         40
          reviews institutional conflicts
          Number of institutions whose committees have
          the authority to determine whether institutional                                       26                           14                         40
          financial interests are institutional conflicts
          Number of institutions whose committees have
          the authority to determine how institutional                                           24                           14                         38
          conflicts will be addressed
          Number of institutions whose committees are
          separate entities from the committees responsible                                      12                            7                         19
          for reviewing researchers’ conflicts
          Number of institutions whose boards of trustees
          (or equivalent governing bodies) have also
          established their own standing committees on                                              9                          6                         15
          institutional conflicts as recommended by the
          Institute of Medicine
Source: Office of Inspector General analysis of grantee institution survey responses, March 2010.




            OEI-03-09-00480             INSTITUTIONAL CONFLICTS     OF   INTEREST   AT   NIH GRANTEES                                      20
                 A P P E N D I X ~ B

    Table B-1: Number of Grantee Institutions That Reported Incorporating
    Recommended Actions From Departmental Guidance in Written Policies and
    Procedures Regarding Institutional Financial Interests

                                                                                 Number of Grantee             Number of Grantee        Total Number of Grantee
    Recommendation                                                                                                                                             1
                                                                           Institutions in Stratum 1     Institutions in Stratum 2                 Institutions
    Establish conflict-of-interest committees or identify other
    bodies or persons and procedures to deal with individual
    or institutional financial interests in research or verify the                                35                            20                              55
    absence of such interests and address institutional
    financial interests in research
    Establish criteria to determine what constitutes an
    institutional financial conflict, including identifying
    leadership positions for which the individual’s financial                                     32                            20                              52
    interests are such that they may need to be treated as
    institutional financial interests
    Determine whether particular individuals should report
    financial interests to the conflict-of-interest committee
    (individuals could include Institutional Review Board                                         34                            17                              51
    members and staff, appropriate officials of the
    institutions, and researchers)
    Establish policies on providing information,
    recommendations, or findings from conflict-of-interest                                        29                            16                              45
    committee deliberations to Institutional Review Boards
    Establish the independence of institutional responsibility
    for research activities from the management of the                                            26                            17                              43
    institution’s financial interests
    Establish policies regarding the types of financial
    relationships that may be held by parties involved in the
                                                                                                  25                            18                              43
    research and circumstances under which those
    relationships and interests may or may not be held
    Establish clear channels of communication between
    conflict-of-interest committees and Institutional Review                                      29                            13                              42
    Boards
    Establish measures to foster the independence of
    Institutional Review Boards and conflict-of-interest                                          28                            14                              42
    committees
    Establish procedures for disclosures of institutional
                                                                                                  25                            16                              41
    financial relationships to conflict-of-interest committees
    Provide training to appropriate individuals regarding
                                                                                                  27                            11                              38
    financial interest requirements
    Include individuals from outside the institution in the
                                                                                                  23                            10                              33
    review and oversight of financial interests in research
    Use independent organizations to hold or administer the
                                                                                                  12                             4                              16
    institution’s financial interest
 Source: Office of Inspector General analysis of grantee institution survey responses, March 2010.
1
  The total number of institutions that reported incorporating recommendations equals 62. The number of institutions in this column does not equal 62 because some
institutions incorporated more than 1 recommendation.




             OEI-03-09-00480            INSTITUTIONAL CONFLICTS      OF   INTEREST   AT   NIH GRANTEES                                           21
                 A P P E N D I X ~ C

   Table C-1: Methods Employed by Grantee Institutions To Manage, Reduce, or
   Eliminate Institutional Conflicts

                                                                                    Number of Grantee             Number of Grantee              Number of Grantee
   Methods                                                                                                                                                         1
                                                                              Institutions In Stratum 1     Institutions in Stratum 2                 Institutions
   Ensuring open exchange of research results through
                                                                                                    30                             40                              70
   publications and/or presentations
   Disclosure of institutional conflicts during the informed
                                                                                                    31                             24                              55
   consent process for research subjects
   Where the institutional conflict involves senior officials,
   formal recusal of the conflicted officials from the chain of
   authority over the research and communication of the                                             37                             17                              54
   recusal arrangement to the officials’ superiors and
   colleagues
   Notification of the Institutional Review Boards regarding
                                                                                                    31                             22                              53
   institutional conflicts
   Ensuring that adequate peer review of research is
                                                                                                    18                             34                              52
   performed by the institution
   Disclosure of the institutional conflicts in public
                                                                                                    25                             25                              50
   presentations and publications
   Where the institutional conflict involves a senior official,
   designation of a “safe haven” (e.g., a nonconflicted senior
                                                                                                    32                             15                              47
   individual) with whom researchers can address
   institutional-conflict-related concerns
   Monitoring the use of institution facilities or prohibiting the
   use of institution facilities/resources to further the interests                                 24                             19                              43
   of companies connected to institutional conflicts
   Ensuring that no technology/intellectual property is
   inappropriately shared with companies connected to                                               19                             23                              42
   institutional conflicts
   External monitoring of research studies                                                          20                             19                              39
   Prohibiting outside companies related to institutional
   conflicts from sponsoring research associated with the
                                                                                                    17                             17                              34
   conflicts or requiring approval for outside companies to
   sponsor research
   Preapproving/overseeing purchases of goods/services from
                                                                                                    17                             16                              33
   companies connected to institutional conflicts
   Elimination of the institutional conflict                                                        18                             15                              33
   Disclosure of the institutional conflicts to other researchers
                                                                                                    11                             10                              21
   and/or centers in a multicenter trial
   Additional internal monitoring of research studies                                                3                              0                               3

   Prohibiting clinical research at the grantee institutions                                         2                              0                               2
Source: Office of Inspector General analysis of grantee institution survey responses, March 2010.
1
  The total number of institutions equals 156. The number of institutions in this column does not equal 156 because some institutions use more than 1 method for
managing, reducing, and/or eliminating institutional conflicts.




             OEI-03-09-00480            INSTITUTIONAL CONFLICTS      OF   INTEREST   AT   NIH GRANTEES                                            22
    A P PEN 0                        x     o

     Agency Comments



                      DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                   Public Health Servic.e



                                                                                                 National Institutes of Health
                                                                                                                ,
                                                                                                 Bethesda. Maryland 20892




                   NOV      2 201D



                  TO: 	         Stuart Wright
                                Deputy Inspector General for Inspection and Evaluations, HHS

                  FROM: 	       Director, NIH

                  SUBJECT: 	    National Institutes of Health Comments on the Draft Office oflnspector
                                General Report: Institutional Conflicts ofInterest at NIH Grantees
                                (OEI-03-09-0048'O)                   .                 .


                  Attached are our general and technical comments on the draft Office ofInspector General
                  report, entitled Institutional Conflicts ofInterest at NIH Grantees (OEI-03-09-00480).

                  We appreciate the opportunity to review and comment on this important topic. Should you
                  have questions or concerns regarding our comments, please contact Mary Anne Mazzarino
                  in the Office of Management Assessment at 301·496·2461.


                                                                       /S/
                                                               Francis S. Collins, M.D., Ph.D.

                  Attachments




OEI·03·09·00480       INSTITUTIONAL CONFLICTS OF INTEREST AT   NIH   GRANTEES                                               23
A   P   P E N D       I X      ~      D




    OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES   24
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Tanaz Dutia served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Philadelphia
                  regional office who contributed to the report include Emily Multari;
                  central office staff who contributed include Heather Barton.




OEI-03-09-00480   INSTITUTIONAL CONFLICTS   OF   INTEREST   AT   NIH GRANTEES        25
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
